HHS/OIG-Audit--"Medicaid Costs Claimed by the Minnesota Department of Human Services for Intermediate Care Facilities for the Mentally Retarded, (A-05-92-00062)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Costs Claimed by the Minnesota Department of Human Services
for Intermediate Care Facilities for the Mentally Retarded," (A-05-92-00062)
October 29, 1993
Complete Text of Report is available in PDF format
(1.99 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State agency had not refunded $2.9
million (Federal share) of Medicaid overpayments made to 75 Intermediate Care
Facilities for the Mentally Retarded (ICFs/MR) between October 1, 1985 and August
31, 1991. The overpayments were the result of State agency audit findings which
adjusted the per diem rates used to reimburse providers for Medicaid ICF/MR
services. The audit adjustments which were applied retroactively, effectively
decreased the providers' per diem rates. We recommended policy changes, procedural
improvements and a financial adjustment for $2.9 million. Regional Health Care
Financing Administration officials concurred with our findings and recommendations.